<html>
<title> - WORDS HAVE CONSEQUENCES: PALESTINIAN AUTHORITY INCITEMENT TO VIOLENCE AND MARKUP OF H. RES 293, EXPRESSING CONCERN OVER ANTI-ISRAEL AND ANTI-SEMITIC INCITEMENT WITHIN THE PALESTINIAN AUTHORITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                  WORDS HAVE CONSEQUENCES: PALESTINIAN
                  AUTHORITY INCITEMENT TO VIOLENCE AND
                    MARKUP OF H. RES 293, EXPRESSING
                      CONCERN OVER ANTI	ISRAEL AND
                   ANTI	SEMITIC INCITEMENT WITHIN THE
                         PALESTINIAN AUTHORITY

=======================================================================

                           HEARING AND MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-111

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE 

97-265PDF                      WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Elliott Abrams, senior fellow for Middle Eastern studies, 
  Council on Foreign Relations...................................     6
Jonathan Schanzer, Ph.D., vice president for research, Foundation 
  for the Defense of Democracies.................................    12
Mr. David Makovsky, Ziegler Distinguished Fellow, director, 
  Project on the Middle East Peace Process, Irwin Levy Family 
  Program on the U.S.-Israel Strategic Relationship, The 
  Washington Institute for Near East Policy......................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Elliott Abrams: Prepared statement...........................     8
Jonathan Schanzer, Ph.D.: Prepared statement.....................    14
Mr. David Makovsky: Prepared statement...........................    29

                               MARKUP OF

H. Res. 293, Expressing concern over anti-Israel and anti-Semitic 
  incitement within the Palestinian Authority....................    54
  Amendment in the nature of a substitute to H. Res. 293 offered 
    by the Honorable Edward R. Royce, a Representative in 
    Congress from the State of California, and chairman, 
    Committee on Foreign Affairs.................................    59
      Amendment to the amendment in the nature of a substitute to 
        H. Res. 293 offered by the Honorable Matt Salmon, a 
        Representative in Congress from the State of Arizona.....    66

                                APPENDIX

Hearing and markup notice........................................    70
Hearing minutes..................................................    71
Markup minutes...................................................    72
Markup summary...................................................    74
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Jewish Members of Congress Condemn 
  ``Offensive and Incendiary'' UNESCO Resolution Blaming Israel 
  for Recent Surge in Violence...................................    75

 
                  WORDS HAVE CONSEQUENCES: PALESTINIAN
                    AUTHORITY INCITEMENT TO VIOLENCE
                  AND MARKUP OF H. RES 293, EXPRESSING
                      CONCERN OVER ANTI-ISRAEL AND
                   ANTI-SEMITIC INCITEMENT WITHIN THE
                         PALESTINIAN AUTHORITY

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. This 
morning we consider the recent wave of terror that has gripped 
Israel.
    In a span of weeks, Palestinian militants have attacked 
more than 100 Jewish men, women, and children. Ten of those who 
have been knifed have died. A 2-year-old toddler, a 13-year-old 
on a bike, a 70-year-old woman on a bus are among those who 
were wounded. This is terrorism at its core when anyone who 
steps outside could be next.
    These attacks, mainly stabbings, have been driven by a 
deliberately misleading message. Palestinian Authority 
officials and extremist clerics have falsely claimed that 
Israelis are trying to change the status quo by limiting Muslim 
access to the Temple Mount/al-Aqsa Mosque compound that is holy 
to both faiths.
    The calls for killing have been amplified on social media 
as Arabic hashtags like ``the knife intifada,'' ``poison the 
knife before you stab,'' and ``slaughtering the Jews,'' rapidly 
spread a message to attack those who are Jewish. Palestinian 
President Abbas regrettably has joined the hate speech.
    Israel is contending with a deep-seated hatred, nurtured by 
Palestinian leaders over many years in mosques, in schools, in 
newspapers, and on television channels. Consider growing up in 
an environment in which television shows regularly glorify 
terrorists who have killed Israeli civilians; where you are 
taught that Jews are subhuman. Or watching a small boy 
interviewed on television who speaks of wanting to be an 
engineer, in his words, ``so that I can build bombs to blow up 
all the Jews.'' Or seeing the family next door receive a 
generous stipend for their son igniting his suicide vest.
    Perhaps most concerning, this culture of hate is being 
cultivated by Palestinian leaders. After being exposed day in 
and day out to these types of messages for most of their young 
lives, many of these young people will react and once the 
Palestinian President declares, in his words, ``We welcome 
every drop of blood spilled in Jerusalem'' there are 
consequences to that.
    And it doesn't help when those in the media--or the 
Secretary of State for that matter--give this incitement a 
pass. Yes, there are many complexities in the Middle East, but 
there can be no moral equivalency when children as young as two 
are being stabbed. None. The U.S. should be speaking loudly and 
clearly--Palestinian officials must work to restore calm and 
renounce the incendiary statements. And its leadership must be 
confronted with the questions: How does this incitement serve 
the interests of Palestinian men, women, or children? How does 
this lay the groundwork for peace?
    The international community also has a responsibility. 
There is the international outcry for the generations of 
children which are growing up on blind hatred. There is an 
outcry. But that outcry is pretty muted compared to what I have 
seen in the international press. We need to amplify that voice. 
We need to build on some of the things that we have done here 
in the hearings in order to try to convince the Palestinian 
Authority to toss these textbooks and go with a lesson plan 
that teaches coexistence. Given that about one-third of the 
Palestinian Authority's budget is financed through foreign aid, 
international donors have leverage on this. They should be 
using that leverage. They could follow the lead of the U.S. 
Congress and make direct funding of the PA off limits until the 
incitement stops.
    This is a very tough time for Israel. It is my hope that 
President Abbas and others will seek to restore calm in the 
coming days and incitement is challenged so reconciliation has 
a chance.
    And I now turn to the ranking member for any opening 
comments that Mr. Eliot Engel of New York might have.
    Mr. Engel. Thank you, Mr. Chairman.
    Thank you for calling this hearing. Obviously, the 
Palestinian violence in Israel and the West Bank is reaching a 
crisis point. Our immediate goal must be to demand that those 
responsible end this senseless and lawless bloodshed. But it is 
also important that we seek to understand why this violence has 
reared up now, while continuing to demonstrate unwavering 
support for our ally, Israel.
    I am glad that our witnesses are here to be part of this 
conversation. Let me say to all of you: Welcome to the Foreign 
Affairs Committee.
    It is heartbreaking, I have to say, to wake up seemingly 
every morning to a new report of a stabbing or shooting of an 
innocent civilian in Israel. I can only imagine what it is like 
for the victims and their loved ones, and no person anywhere 
should have to live with that kind of fear.
    And let me just say for people who have grievances and who 
feel that the Government of Israel hasn't done what it should 
do: Terrorism is not the answer. And I support a two-state 
solution. But the Palestinians will never get their state on 
the backs of terrorism. If they think that they can use 
terrorism to get their state, they are sadly mistaken and that 
has to be understood by everyone.
    These are innocent civilians who have had no role 
whatsoever in anything. And it is terrorism pure and simple 
when you go and just stab somebody or make them afraid that you 
are going to harm them when they are just innocent civilians in 
the street.
    That is not anything that should in any way, shape, or form 
be condoned and there is no moral equivalency. No government 
anywhere should hesitate to defend its citizens from that sort 
of violence and why there would be any question about that 
baffles me.
    Israel has the right to defend itself and its people, plain 
and simple, and we know what the Israelis are up against.
    This wave of violence isn't some random flare up. It is the 
product of years and years of anti-Israel propaganda and 
indoctrination, some of which has been actively promoted by 
Palestinian Authority officials and institutions.
    These ugly ideas have been woven into Palestinian society 
and media for decades. Books that teach children that Israelis 
are their enemies, political cartoons depicting Jews as apes 
and pigs, the glorification of terrorists as martyrs and heroes 
in a holy war--every slur, every slogan, every lie told about 
Israel and Jews is like adding another piece of kindling to the 
stack. One small spark and it starts burning and that is what 
we are seeing today.
    The best option for stopping these attacks would be for 
Palestinian leaders to demand an end to the violence and bring 
those responsible to justice.
    Unfortunately, that is not what we are hearing from the 
Palestinian Authority. Instead, we are hearing a false 
equivalence between terrorists and Israeli law enforcement. We 
are hearing blame put on the Israelis for defending their 
people.
    False claims about changing the status quo on the Temple 
Mount, lies about the Israelis executing an attacker when that 
attacker is actually being treated in an Israeli hospital--
statements like these just throw gasoline on the fire.
    Chairman Royce and I are circulating a letter to President 
Abbas imploring him to repudiate this wave of violence and to 
stop the PA's incitement of this brutality.
    So much depends on bringing a quick end to these attacks 
because in addition to the horrible cost of life and limb 
crises like this one play into a much bigger picture.
    With each drop of blood shed, the goal of a two-state 
solution becomes harder and harder to reach. Violence and 
terrorism will never be the foundation of a peaceful future.
    Palestinians need to put down their knives and guns and 
their leaders need to come back to the negotiating table with 
no preconditions.
    I sincerely hope for the sake of Israelis and Palestinians 
alike that President Abbas shows real leadership in the days 
ahead.
    For now, I think it is important that we continue to speak 
out against the mayhem that this Palestinian violence has 
brought to Israel.
    I look forward to hearing from our witnesses about what is 
behind this recent violence, how it will be halted and what, if 
anything, we can do to help reach that goal more quickly.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We are going to go to 2 minutes for our chairwoman and 
ranking member of the Middle East Subcommittee, Ileana Ros-
Lehtinen, and then to Ted Deutch.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for convening this important and timely 
hearing and for calling forward the resolution I introduced 
alongside my friend and south Florida colleague, Congressman 
Ted Deutch, House Resolution 293, for markup immediately 
following today's hearing.
    As you said, Mr. Chairman, words do have consequences and 
so also do actions and what we have seen for far too long from 
the Palestinian Authority and Abu Mazen words and actions that 
are designed to incite violence, stoke tensions between 
Israelis and Palestinians, and shut down the path to a peaceful 
settlement between the two.
    Why do we see this? Because Abu Mazen is weak and self-
serving. This is the only course of action he can take as a 
charade to attempt to look strong to the Palestinian people.
    But the Palestinian people have grown tired of his failed 
leadership and they don't trust him nor his corrupt allies. So 
what does he do when the people start to turn on him? He turns 
them against Israel.
    When in doubt, the PA blames Israel in order to deflect the 
tension away from its own shortcomings. We will never see peace 
achieved between the two until we see real leadership from the 
Palestinians, leaders who are willing to work for the 
Palestinian people instead of against Israel.
    The Palestinians need a leader who is willing to reach 
peace instead of inciting violence and that man has never been 
nor will ever be Abu Mazen.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Ileana.
    Mr. Ted Deutch.
    Mr. Deutch. Thank you, Mr. Chairman, and thanks to the 
ranking member for moving specifically to hold this hearing to 
examine the official Palestinian incitement as this wave of 
violent attacks continues in Israel.
    I want to welcome back the witnesses today. I look forward 
to a productive discussion, one that I trust and know will be 
rooted in fact.
    Let me first add, I believe the last 2 weeks of violence in 
Israel is a direct result of incitement. These attacks aren't 
about protecting religious rights. They are acts of terrorism.
    Let me be clear. All violent attacks on innocent civilians 
must be condemned, regardless of whether the perpetrators are 
Palestinians or Israelis, and I welcome statements by Prime 
Minister Netanyahu condemning violent attacks of revenge and 
warning against vigilantism.
    But these recent attacks flow directly from Palestinian 
figures attempting to turn a political conflict into a 
religions conflict by making false and inflammatory accusations 
about Israeli actions with respect to the Temple Mount.
    These kinds of messages have nothing to do with the current 
political situation between the Israeli Government and the 
Palestinian Authority.
    When President Abbas himself says, ``We welcome every drop 
of blood spilled in Jerusalem,'' that sends a dangerous message 
that violence is the only way to preserve Muslim sites.
    Unfortunately, incitement within official channels of the 
PA is nothing new. There are countless examples in official 
textbooks, social media pages, and television speeches that 
call for armed conflict or depict Jews as dirty pigs.
    President Abbas came to power on a platform of nonviolence. 
He pledged to seek a stable Palestinian state through direct 
negotiations with Israel. If this is still his platform he must 
speak out to his people. He has yet to condemn one stabbing or 
armed attack in the past few weeks, instead, choosing to go on 
television and claim that Israel was engaged in the summary 
execution of children.
    And as Secretary Kerry said this week, President Abbas had 
been committed to nonviolence. He needs to be condemning this 
loudly and clearly and he needs to not engage in the incitement 
that his voice has sometimes been heard to encourage.
    That has to stop. Mr. Chairman, if officials within the 
Palestinian Authority never publicly acknowledge the benefits 
of the cooperation that is taking place between the Palestinian 
security forces and Israeli forces to calm the situation, if 
they never prepare their people for what peace looks like, a 
Palestinian state living side by side next to the Jewish state 
of Israel, and if their children never see Israel existing on a 
map in their textbooks, they continue to refuse to condemn the 
recent acts of terror, incitement will unfortunately continue 
and peace will, unfortunately, be dramatically harder to 
obtain.
    I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    This morning we are pleased to be joined by a distinguished 
panel. We have with us Mr. Elliott Abrams, a senior fellow for 
Middle Eastern studies at the Council on Foreign Relations. 
Prior to this, Mr. Abrams served as the deputy national 
security advisor in the previous administration.
    Dr. Jonathan Schanzer is vice president for research at the 
Foundation for Defense of Democracies. Dr. Schanzer has written 
two books on the region and served as a counter terrorism 
analyst at the Department of Treasury.
    And Mr. David Makovsky is a director and distinguished 
fellow at the Washington Institute for Near East policy. Mr. 
Makovsky recently served as a senior advisor to Secretary of 
State Kerry on the Middle East.
    And without objection, the witnesses' full prepared 
statements are going to be made part of the record here and 
members will have 5 calendar days to submit any statements, 
questions, or extraneous material for the record.
    So we will start with Mr. Abrams. Please summarize your 
remarks and let us get the microphone right about there.

   STATEMENT OF MR. ELLIOTT ABRAMS, SENIOR FELLOW FOR MIDDLE 
         EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    What leads a teenager to stab or attempt to stab to death 
someone he or she had never met? Stabbing is the most intimate 
of attacks. It is not setting a bomb for people you will never 
see. It is not shooting from a distance. It is reaching out to 
someone inches away from you and taking that person's blood.
    The answer is, I think, the teaching of hate, as the 
statements you have made indicate. We use the term incitement 
but that is a polite way of saying the teaching of hatred--the 
demonizing and dehumanizing of Jews.
    Teaching hate by honoring terrorists, teaching hate by 
telling lies about what is happening on the Temple Mount. You 
can read in the press sometimes that these killings are the 
product of poverty and hopelessness or disappointment about the 
peace process.
    But, you know, there is not more poverty or hopelessness in 
October than there was in June. That is not the explanation. It 
doesn't explain the timing.
    So why now? I think the most logical explanation is these 
lies about changes at the Temple Mount, that Israel is 
undermining it or defiling it, and those lies are being 
repeated not only in the Palestinian media but by the top 
Palestinian leadership.
    Several of you have quoted President Abbas on this 
question. Once the violence began, the Palestinian leadership, 
unfortunately, starting with President Abbas, have been feeding 
it. And, again, you have used some of the terrible terminology 
that he has used.
    ``Each drop of blood that was spilled in Jerusalem is pure 
blood''--President Abbas. He accused Israelis of ``the summary 
execution of our children in cold blood.'' This was a reference 
to a Palestinian teenager who is alive.
    Once could go through lots of examples of the glorification 
of individual terrorists. Probably the worst is Dalal Mughrabi, 
a woman who was involved in the killing of 37 civilians, 12 of 
them children, in a 1978 bus hijacking.
    She has been turned into an absolute hero. There are 
schools and summer camps and sports tournaments named after 
her. The PA celebrated the 31st anniversary of that terrorist 
attack with an hour-long TV special. The Palestinian Bar 
Association decided about a week ago to award a great honor to 
Mohammed Halabi, a 19-year-old who killed two Israelis on 
October 3rd, stabbing them to death in the old city of 
Jerusalem. They call him a heroic martyr and gave him an 
honorary law degree.
    Well, the U.S. Government reaction to all this has been to 
condemn incitement. The problem is that we have been condemning 
incitement for decades but we never do anything about it and it 
is a bipartisan error. We don't do anything about it under 
administrations of both parties.
    Usually, there is something else we want more that day or 
week or month. We want the Palestinians to do something with 
the U.N. or not do something with the U.N. or we have a 
negotiation coming.
    So what do we do? It is not an easy question, because if 
you think about ``Let us cut off every cent for the PA'' the 
first people to tell you ``Oh, don't do that,'' will be the 
Government of Israel because if the PA collapses it collapses 
into their laps.
    So I have just three suggestions. First, close the PLO 
office in Washington and do not let the PA open an office here 
until there has been real progress in stopping in the 
incitement by PA institutions and officials.
    Second, if we cannot usefully stop all PA funding, let us 
try to stop the illegal personal funding, the corruption that 
is rife there. It is widely known that corruption has increased 
significantly since Salam Fayyad resigned as Prime Minister 
2\1/2\ years ago. We should be doing more in investigating and 
preventing corruption.
    And third, we should keep track of who is doing the 
incitement that you have referred to. Who are the individuals 
doing that incitement, and they should be barred from getting 
visas for the United States, at least for a time.
    There ought to be a personal price to pay. These are not 
panaceas, these three steps, but they are better than what we 
usually do, which is, frankly, nothing.
    What we have seen in the last few weeks, the teaching 
hatred and glorifying terror, eventually results in acts of 
terror that reflect that hatred. So we need to act ourselves.
    Thank you for inviting me here today. I look forward to any 
questions you may have.
    [The prepared statement of Mr. Abrams follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


   STATEMENT OF JONATHAN SCHANZER, PH.D., VICE PRESIDENT FOR 
      RESEARCH, FOUNDATION FOR THE DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Chairman Royce, Ranking Member Engel, members 
of the committee, on behalf of FDD, thank you for the 
opportunity to testify.
    The current violence can be traced to Palestinian 
allegations that Israel seeks to change the status quo on the 
Temple Mount.
    Israel controls access to the site but it does not 
interfere in matters of religious prayer and over the last year 
there have been approximately 4 million Muslims on the site 
compared to just 12,000 Jews.
    Yet, the Palestinian media is filled with wild reports that 
Israel seeks to undermine Muslim rights there, and at the 
forefront of this campaign is WAFA, the news agency of the PLO.
    To calm tensions, Israel has barred ministers and 
parliamentarians from entering the Temple Mount, and when Jews 
visit, they are forbidden from praying. Israeli security 
enforces this rather strictly.
    Unfortunately, Mahmoud Abbas, who is both PLO chairman and 
Palestinian Authority President, has taken no steps to reduce 
tensions. In a speech last week, Abbas accused Israel of 
working to change the status quo and he accused Israel of 
terrorism and shooting Palestinian children in cold blood.
    Abbas now faces some tough choices. He can back a third 
intifada and ride the support of his people. But the chaos 
could upend his rule in the West Bank. He also risks invoking 
the ire of the Israelis, who could easily topple him.
    If he stands down, he can maintain security cooperation 
with Israel to fight the domestic forces that threaten his grip 
on the West Bank. But in so doing, he fails to galvanize his 
people.
    This is why Abbas has tacitly embraced the unrest but has 
not unleashed PLO or PA forces against Israel.
    Interestingly, Hamas also has one foot in the uprising and 
one foot out. Hamas has kept a lid on the violence in Gaza for 
fear of another war that could devastate their territory.
    But Hamas is a key driver of the stabbings and other 
violence in the West Bank and Jerusalem. For Hamas, the 
benefits of fomenting unrest in the West Bank are two-pronged. 
They get to challenge Israel and also undermine their political 
rival, the Palestinian Authority, which they have tried to 
unseat for more than a decade. None of this poses a risk to 
Hamas' grip on Gaza.
    With neither Abbas nor Hamas fully committed to war, social 
media has taken an outsized role.
    One particularly disturbing hub is the Palestine Dialogue 
Forum, or PLDF, which depicts Jews as monkeys and pigs, 
Palestinian toddlers wearing Hamas headbands and wielding 
knives, and worse, they promote hashtags calling for the 
Jerusalem intifada and the knife intifada.
    Hamas and Fatah also maintain dangerous social media 
channels calling for Palestinians to embrace violence. I 
identify these and many other outlets in my written testimony.
    Mr. Chairman, amidst all of this, the Obama administration 
has issued talking points that have arguably led the 
Palestinians to believe that their violence is justified. To 
put it mildly, this is unhelpful.
    I am often asked whether this is a third intifada. In 
short, I don't know, but I can offer the following six 
suggestions.
    Number one is halt Iranian cash to Hamas. Iran's financial 
ties with Hamas are well documented. After Iran begins to 
receive sanctions relief, pursuant to the nuclear deal signed 
this summer, Hamas stands to benefit even more. Congress must 
stop these funds from flowing.
    Number two, pressure Qatar and Turkey to stop supporting 
Hamas. Both countries, because of their status as U.S. allies, 
think they can support Hamas without being viewed as state 
sponsors of terrorism. Congress should not let this stand.
    Number three, target the PLO. The PLO is technically the 
peace-negotiating body for the Palestinians. In reality, it is 
a bloated and opaque organization that has consistently stymied 
diplomacy. Congress should consider punitive measures until the 
PLO halts its incitement. More broadly, it should rethink its 
recognition of the PLO.
    Number four, investigate the Palestine National Fund. The 
PNF is the official financial organ of the PLO. The PNF 
receives funding from the PA budget, to which America 
contributes 20 percent. The PNF uses its funds to help the 
families of ``martyrs, '' and it funds Palestinian media 
organs. Congress should determine whether the U.S. funds the 
PNF and take action accordingly.
    Number five, stop the Palestine 194 campaign. When Israel 
responds to terrorist attacks, the Palestinian Authority 
alleges war crimes. This is part of a campaign designed to both 
delegitimize Israel and pave the way for unilateral declaration 
of statehood. Congress should clarify U.S. policy on this 
dangerous campaign.
    And finally, prepare for Palestinian succession. Washington 
must hasten the orderly exit of Mahmoud Abbas. After a decade 
of corruption and poor governance, he lacks the ability to 
lead. This has been made clear by his half-hearted stance on 
Palestinian violence. Now is the time to make plans for a new 
leader.
    Mr. Chairman, thank you again for inviting me here today. I 
look forward to your questions.
    [The prepared statement of Mr. Schanzer follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Dr. Schanzer.
    Mr. Makovsky.

STATEMENT OF MR. DAVID MAKOVSKY, ZIEGLER DISTINGUISHED FELLOW, 
DIRECTOR, PROJECT ON THE MIDDLE EAST PEACE PROCESS, IRWIN LEVY 
 FAMILY PROGRAM ON THE U.S.-ISRAEL STRATEGIC RELATIONSHIP, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Makovsky. Chairman Royce, Ranking Member Engel and 
distinguished members of the committee, thank you for the 
opportunity to discuss the situation in Jerusalem.
    In discussing it, we should be clear what I think we would 
all agree on--there is no justification for any incitement to 
violence.
    When you say that Israel wants to change the status quo on 
the Temple Mount Haram al-Sharif, it is equivalent to yelling 
fire in a crowded theater.
    Given the role that such allegations have played before in 
provoking violence in the past, I had added up just since 1991 
when we have had these spurts, 269 people have been killed as a 
result of these allegations before the current round, which 
Chairman Royce mentioned.
    Secretary of State Kerry said in an interview on NPR last 
Friday there is no excuse for the violence--Palestinians need 
to understand and President Abbas has been committed to 
nonviolence but he needs to be condemning this loudly and 
clearly and he needs to not engage in some of the incitement 
that his voice has sometimes been heard to encourage. So this 
has to stop.
    This incitement includes public remarks. As we have heard, 
every drop of blood spilled in Jerusalem is pure, every martyr 
will reach paradise and every injured person will be rewarded 
by God and Jews ``have no right to desecrate the mosque with 
their dirty feet.'' Yes, he has called for a nonviolent 
struggle in recent days but the damage here is pretty strong.
    Sadly, this is not a new charge that Israel is out to 
destroy the mosque. Since the 1929 Hebron Massacre, there have 
been, like I mentioned, several incidents.
    But a few things needs to occur to ensure that this pattern 
is not repeated, and I would just like to associate myself with 
some of the comments like the idea of blacklisting people 
engaged in such incitement.
    I think even a congressional delegation to deal with your 
European counterparts who are also generous supporters of the 
Palestinians--there needs to be some sensitizing there.
    But when it comes to the mount itself, there needs to be 
acknowledgement that the Temple Mount is holy to both Muslims 
and Jews. While Israeli leaders of all stripes have asserted 
the sanctity of the area to Muslims--the Haram al-Sharif--the 
reverse has not been the case.
    The Palestinian leadership does not acknowledge the site's 
historical significance for the Jewish people. At the Camp 
David summit in 2000, Yasser Arafat famously angered President 
Clinton by denying the temples even existed, saying they were 
located in Nablus or even in Yemen. Clinton reportedly 
responded that every Sunday school student in Arkansas knew 
that this was not the case.
    The vast majority of Jews and Israelis around the world do 
not attempt to pray on the Temple Mount. From 1967 and on its 
chief rabbinate has forbidden Jews from visiting the area, 
believing this should not occur until the messianic age.
    Yes, a few radical Israeli activists and even some 
politicians, including Agriculture Minister Uri Ariel, have 
recently visited the mount.
    Yuval Diskin, the former head of the Shin Bet, echoed the 
view of many who urged not to allow this, saying that this is 
``the most fuel-saturated flammable area in the Middle East.'' 
To the credit of the Netanyahu government, it has refused to 
change the status quo.
    Ironically, the lack of acknowledgement on the Palestinian 
side was not always the case. A pamphlet for tourists published 
by the Supreme Muslim Council in 1924 says the fact that the 
al-Aqsa is built on the site of the Solomon's Temple is 
``beyond dispute.''
    However, the intertwining of religion and nationalism 
ensured that the historical acknowledgement was erased. Of 
course, neither side has to accept the narrative of the other 
as sacrosanct.
    But they can acknowledge that the other side reveres the 
site as they do. Violence is bound to continue, as we have 
seen, and it is very important that--you know, we want to be 
clear that there are other factors here. But there is, like I 
said, no excuse for violence.
    What can be done in terms of the site? I think one thing is 
to help define the status quo with an explicit set of 
understandings. It would add a measure of predictability. This 
means also that the Jordanians would a take side to this along 
with Israel and the Palestinians.
    Jordan, being the custodian of the Temple Mount for the 
Arab side, would have to affirm that the status quo is indeed 
being maintained.
    Another idea--Israel is able to use social media when it 
comes to reaching Palestinians in Gaza, urging them to get out 
of harm's way.
    There has to be a way for the start-up nation with all its 
high tech prowess to find ways to communicate directly to the 
smart phones and cell phone and text messaging on the Arab 
side.
    My final point is this, that that is the situation. It 
could get worse. It is important to remember that Israel and 
the Palestinian security officials are engaged in daily 
security cooperation that is vital to both sides. We are 
approaching the 20th anniversary of the killing of Yitzhak 
Rabin.
    Nobody could call Rabin a dreamy peacenik. Yet, he 
understood, I would like to say in conclusion, that the traumas 
endured by the Israelis and Palestinians require them to 
separate.
    This insight underscores the need to continue to work for 
separate political entities to give dignity to both sides.
    But the bloodshed in Jerusalem reminds us that the 
Palestinians need to come to terms with the fact that both 
sides have both political rights but each side has a religious 
connection to the land.
    If that recognition is not reached, I worry that the 
violence will continue to periodically erupt and even 
intensify.
    Thank you very much.
    [The prepared statement of Mr. Makovsky follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Makovsky.
    So in testimony here, one of the discussion points was the 
case of Mohammad Halabi, a 19-year-old who attacked an Israeli 
family with a knife, killing the father, injuring the mother, 
and the 2-year-old son.
    So we have somebody going after a 2-year-old with a knife 
and I guess at this point we are not surprised that he would be 
honored. We are sort of used to that being a reaction.
    The question to me--what jumped out at me was he was 
honored by the Palestinian Bar Association. So that is what I 
was going to ask the panel here.
    So he is given an honorary law degree. One would think that 
a society's lawyers might be in a place to find some, you know, 
moderation or tolerance in this debate, that they wouldn't jump 
to the conclusion that this individual who perpetrated the 
attack would be given a law degree.
    So if not among the bar, where can we find those forces 
among Palestinian society today? Mr. Makovsky.
    Mr. Makovsky. I would refer you to a colleague of mine, 
Mohammed Dajani, who is at the Washington Institute. He is a 
teacher at al-Quds University. He took 29 Palestinian students 
of his to Auschwitz because there has been a lot of denial of 
the Holocaust.
    Now, sadly, when he returned his car was torched. He lost 
his job. But he remains steadfast. He is now at the institute. 
We hope he will be returning and there is--his movement to 
focus on moderation.
    But we need religious leaders. We need academics. We need 
all kinds of opinion shapers to be part of the solution and not 
part of the problem.
    Chairman Royce. Well, one of the questions I would ask here 
is with all of the donations made by the international 
community, why not textbooks that focus on history, focus on 
facts, focus maybe on coexistence, focus on something other 
than hate. I don't think it is a prerequisite that we have a 
lesson plan in there.
    But I have gone through these textbooks and I know from an 
audit that we have had done here that there is some reversal 
from where we were, you know, maybe 6 years ago with respect to 
UNRWA.
    But how would we substitute instead of this message and 
instead of the lesson plans, and I have seen footage of that 
and broadcasts and I have talked to President Abbas about this 
issue as has other members--Mr. Engel and other members of this 
committee--how could we sort of change the calculus here?
    Because it seems the central issue is--I think it was Mr. 
Abrams that said this--the central issue is that both political 
parties have never--they have talked about incitement in terms 
of the White House but we haven't had really a plan to make it 
a central issue that we substitute that kind of teaching.
    To me, it is like the 600 madrassas or Deobandi schools, as 
they call them in Pakistan, that we know are teaching jihad and 
they never are closed.
    We never substitute some lesson plan or the government 
never does. Why not give lesson plans that prepare a pathway 
toward an understanding of the world done in an objective 
framework?
    Mr. Makovsky. I would just add what we said in our remarks 
about we need to socialize the Europeans. This message has to 
be heard in stereo and they have tended to be more reflexive in 
their support of the Palestinian cause and I think there needs 
to be a congressional plan to get this message out so the 
Palestinians are hearing it from all directions, not just from 
the United States.
    Chairman Royce. Well, we will work with you and put 
together a delegation and start a dialogue because I think in 
real time we ought to figure out a way to substitute the 
textbooks with lesson plans that will at least assist children 
in learning something other than the bombastic message that 
their goal in life should be to kill Jews.
    Mr. Abrams. I was just going to add, Mr. Chairman, I think 
rather than giving unearmarked cash budget support for the PA, 
earmark some of the funds for things like this--a new set of 
textbooks.
    Chairman Royce. Mm-hmm. All right.
    I think my time has expired or is about to. I will go to 
Mr. Engel of New York.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    You know, this breaks my heart. It really does. As someone 
who believes in a two-state solution--best for both peoples, I 
believe--this thing is spiraling out of control and, again, 
there can be no condoning acts of violence, acts of terrorism 
against innocent civilians.
    So we all agree the Palestinians must end their incitement 
to violence, case closed. But the problem really goes much 
deeper.
    For there ever to be a two-state solution, the Palestinians 
have to prepare their people for peace and that means much more 
than simply stopping calls to jihad and armed struggle. It 
means accepting Israel's right to exist.
    It means openly acknowledging the almost 4,000 years of 
Jewish presence in the lands which are now Israel and the deep 
connection of the Jewish people to this land and it means 
joining in the effort to build a modern society on this ancient 
land rather than stoking ancient hatred to tear down the 
advances which modernity has brought.
    So let me just ask an open ended question. What can be done 
to encourage the Palestinians to prepare their people for 
peace? And many of us had such high hopes with the Oslo 
Accords. Has so much time passed since the Oslo agreements and 
since there has been so many failures in the meantime is this 
still even possible? Whoever would care.
    Mr. Abrams. I would just say briefly, Mr. Engel, I think 
there is a desire still for separation, at least on the part of 
the Israelis.
    The form of the separation is more under debate than the 
goal of separation. But here I would agree with David Makovsky. 
Part of the problem is there are a lot of messages coming in to 
Palestinians.
    They come from the Arab world, they come from the Europeans 
and, of course, they come from the United States and we can't 
control the other messaging. But we can perhaps try to 
influence it.
    Mr. Schanzer. Congressman Engel, I would just add to what 
Elliott has just said that I think so much of this just comes 
straight from the leadership and, again, I would point to not 
just--I mean, I know there has been a lot of focus on the PA, 
but I think so much of the messaging about Israel comes from 
the PLO and comes from Mahmoud Abbas himself, and I think one 
of the things that FDD has looked at is the question of 
succession. Can we begin to prepare for the exit of Mahmoud 
Abbas in an orderly way but, more importantly, can we begin to 
identify next generation leaders?
    One of the things that has happened in Mahmoud Abbas' 
term--he is now 10 years into a 4-year term with no signs of 
leaving--is that he has run out every possible challenger 
within that political system.
    And so it is all people who think the way he does and view 
the conflict the way he does. We need a next generation of 
leadership, and I think from there, change can begin to flow.
    Mr. Engel. Well, let us--go ahead.
    Mr. Makovsky. I tried to say by my remarks about the 
security cooperation--and I am glad you mentioned the support 
for two states--is whether it is Yuval Diskin who was the head 
of the Shin Bet, whether it was Benny Gantz, the former chief 
of staff of the IDF who just spoke at my institute, you know, 
that security cooperation is vital for Israelis and 
Palestinians.
    I think Elliott mentioned, you know, the idea that Israel 
doesn't want a collapse because it would collapse in Israel's 
lap. So this is always why it is such a delicate dance.
    But maybe if we could do some of these, you know, more 
targeted intervention and then the idea of earmarking for 
tolerance in the schoolbooks, I think, is probably a good idea. 
That could be part of it. And I agree with Dr. Schanzer that we 
need--that succession is a big issue.
    The question is anything that the United States is seen to 
drive will be a kiss of death in that system. And so this is 
why it is complex.
    But, clearly, he is someone who is turning 81 in March and 
I think this issue of succession is vital. How it is done and 
who does it is where it gets complicated and I just worry that 
if it is an American-led succession he will be called a puppet.
    I also--we have to be careful of unintended consequences. A 
few years ago, I think all of us warned that to cut off the 
money altogether, you know, that Fayyad was the goose that lays 
the golden eggs and without Fayyad, you know, the goose goes if 
there is no more golden eggs.
    And sure enough, he was scapegoated for the stopping of 
money even though he was against--he even broke his wrist on a 
coffee table urging Abbas not to go the route he did at the 
U.N., saying it would lead to cut off in funds.
    But it was he who was targeted. And so that is part of it--
you know, we can have the best of intentions and we get the 
opposite results. That doesn't mean we should be paralyzed but 
we should think about how we are going to get the results we 
want. That is all.
    Mr. Engel. I would like to ask quickly, because I know my 
time is up, but I just want to talk about Abbas for just a 
quick moment because sometimes I think there is a split 
personality running the Palestinian Authority.
    On the one hand, President Abbas makes vile comments. He 
denies the historic Jewish connection to Israel and calls 
perpetrators of terrorists acts as heroes and martyrs, as you 
have all pointed out.
    On the other hand, he has also backed cooperation between 
Israeli and Palestinian security services in an effort to limit 
violence.
    So how should we interpret those mixed messages coming out 
of the PA? Can you help us understand more about President 
Abbas? Is there a method to his madness or is he schizophrenic? 
I mean, what is--you know, what is happening with him?
    Mr. Makovsky. I don't want to speak for my colleagues. I 
just feel, look, there is another element of bitterness here 
that doesn't justify any violence. I keep repeating no 
justification for violence.
    He did have death threats during the intifada--the second 
intifada--where he said that this was--that the second intifada 
was wrong and certainly was counterproductive. There were times 
he said terrorism was morally wrong, I think during Elliott's 
time, and the polling numbers crashed.
    But he has been consistently against violence in the macro, 
saying you need security cooperation. But then look at the 
statement about every ounce of blood.
    So yeah, this is--I don't know how to attribute it. I can't 
read his mind. He is vilified in the Palestinians for not being 
supportive enough of violence but, you know, as a leader you 
have responsibility and you can't escape that.
    Chairman Royce. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you to the witnesses.
    Sadly, when the PA incites violence and we see a terror 
attack or continued increase in violent activity, as we have 
seen over the last month and a half, we find this wrong 
reflexive response from the international community to make a 
false moral equivalence between the PA and Israel.
    And what we see all too often is the unwillingness to call 
out Abu Mazen and the PA, all of their officials for their 
reprehensible words and their actions without finding the need 
to also reprimand Israel, and that is that false moral 
equivalence.
    When it comes to the Palestinians, some do verbal 
gymnastics so as not to upset the fragile nature of Abu Mazen 
and the PA. But there is no such concern when it comes to 
blasting the Israelis.
    Some, very lamely, blame settlement activity by Israel as 
the justification for increased violence instead of putting the 
blame where it should be--with the Palestinian Authority, with 
Abu Mazen, with their longstanding practice of inciting 
violence and hatred against Israel.
    Why is there this double standard that is applied to 
Israel? Why does the international community feel the need the 
handle Abu Mazen with kid gloves and doesn't this send the 
wrong signal and essentially legitimizes Abu Mazen, emboldens 
his action to continue the acts of terror and this incitement 
isn't just intended for the limited consumption of the 
Palestinian people.
    In recent years, as we have seen, Abu Mazen has taken his 
harmful rhetoric to the international stage using the U.N. 
General Assembly and other U.N. bodies as the preferred 
platform to gather like-minded nations together in an attempt 
to delegitimize the Jewish state.
    We saw this several weeks ago when Abu Mazen addressed the 
U.N. General Assembly and announced that the PA is no longer 
bound by the Oslo Accords nor its international obligations.
    This is outrageous. He accused Israel of trying to change 
the status quo on the Temple Mount and threatened a religious 
conflict that would spread across Jerusalem and the Palestinian 
Authorities.
    And what happened when he said that we are no longer bound 
by the Oslo Accords? A standing ovation each time he said that. 
And now Abu Mazen has requested, and it is my understanding 
that it was granted, he has requested to address an emergency 
meeting of the Human Rights Council next week.
    While I think it is safe to say that he will make no 
attempt to defuse the situation but only to inflame the 
tensions. We have a great deal of leverage at the U.N. with 
many of the nations that encourage Abu Mazen's actions in that 
body.
    What steps can we take to get other nations at the U.N. to 
put pressure on Abu Mazen to desist with the incitement, with 
his harmful rhetoric and instead begin working for the 
betterment of the Palestinian people and toward true peace with 
Israel.
    Mr. Abrams, and anyone else.
    Mr. Abrams. These are very difficult questions.
    I think he pays no price. That is the problem. He keeps 
doing it because he never pays a price for doing it. So what is 
the price?
    I mean, we have been reading these terrible quotes from 
him. So what happens this week? Gets a meeting with the 
Secretary of State. Now, will the Secretary of State come out 
and denounce him and condemn him?
    I don't think so. So the lesson he learns is it is okay. It 
is acceptable, and I think what he is doing, this is in answer 
to Mr. Engel's question, actually. What is he doing? He is 
trying to keep calm in the West Bank.
    That is why there is security cooperation. Just like Hamas 
tries to keep calm in Gaza. But Hamas wants violence in Israel 
and the West Bank, and Abbas wants violence in Israel. He just 
doesn't want it back home in the West Bank. It is a very 
cynical game.
    And as long as he pays no price, he will keep it up.
    Mr. Schanzer. I would fully agree with Elliott.
    The only thing that I would add here, and I may sound like 
a broken record today, is that so much of this had to do with 
the question of succession that Abbas has made it--I mean, it 
is a binary proposition: He has made it either it is Hamas or 
it is me, right?
    So no one wants to touch him. You talk about why everyone 
handles him with kid gloves, all right. He had made it such 
that he says, I am the only thing standing in the way of Hamas 
taking over both the West Bank and the Gaza Strip, so you are 
going to play by my rules.
    And it is for that reason that we see, I think, the United 
States bending over backwards, refusing to condemn a lot of 
what he has done because we don't see new opportunities around 
the bend for new leaders.
    Again, I will stress that I think we need to begin to pave 
the way for succession. Abbas won't like it, that is for sure. 
But I can tell you this, that the guy is a pack-a-day smoker. 
He is not healthy.
    When he drops dead----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Schanzer [continuing]. We are going to have problems.
    Ms. Ros-Lehtinen. Thank you, sir.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you.
    Mr. Brad Sherman of California.
    Mr. Sherman. I want to identify myself with the statements 
of the chair, the ranking member.
    We mourn for the victims of terror. We condemn the 
terrorists and those whose lies incite and glorify terrorism. 
We condemn those who reward terrorism with payments to the 
families of terrorists and with glorification of their deeds. 
Arab leaders have much to answer for.
    As to Israel, in the days of the Roman Empire those zealots 
who claimed to be the most pro-Israel did enormous harm. So now 
we see a few fringe Israeli leaders who want to disturb the 
status quo on the Temple Mount.
    They too are harmful. They provide a pretext for those who 
incite terrorism in Israel and those who seek delegitimization 
abroad.
    As to a two-state solution, I don't blame those who are 
pessimistic. I would doubt the sanity of anyone who bubbled 
with optimism about a two-state solution.
    But those who don't voice pessimism about a two-state 
solution but those few Israeli leaders who oppose a two-state 
solution also do immeasurable harm.
    The definition of insanity, of course, is to keep doing the 
same thing and expecting a different result. I have been here 
19 years. I feel like it was just yesterday.
    We condemn what the PA does, we threaten and then we 
continue to subsidize. So I want to focus my questions on 
whether we should change the nature of or eliminate or reduce 
our aid to the PA.
    Now, you gentleman all have incredible background. I have 
constituents who are considerably simpler. They simply say why 
are we giving the PA money and it might be helpful to our 
efforts in the Middle East if we stopped.
    It might be helpful if we continued. Hard to tell except 
for one thing--we reduced the deficit by $500 million if we 
stopped giving money to the PA. That is the only thing that is 
certain.
    So the biggest reason that is given to give money to the PA 
is that if we don't give them money there will be more acts of 
terrorism.
    I will point to the policies of Thomas Jefferson, our first 
President to involve us in the Middle East, who refused to pay 
tribute to terrorists in the state of Tripoli, and the short 
term result was additional terrorism focused on American ships 
in the Mediterranean.
    I am not sure that it is a good thing to give money to 
people who say we are going to kill innocent folks if you don't 
give us money. Those are not good people.
    One approach would be--and I will also point out only in 
the world--only in world affairs is it considered insulting or 
cruel to give somebody $400 million.
    But since we gave them $500 last year, it is cruel. Anyone 
who wants to be cruel to me by delivering $400 million I will 
provide my address at the end of these hearings and I will deal 
with the Ethics Committee later.
    I want to explore with you what about the idea of at least 
cutting the aid and delivering not cash but delivering food and 
delivering textbooks already printed and guess what they are 
going to say about the history of the Middle East.
    Mr. Abrams.
    Mr. Abrams. I think you are absolutely right about the cash 
question, the budget support question. Budget support suggests 
trust in how they are going to spend the money.
    I don't think anybody has that trust anymore. So we should 
move to services rather than cash. The cash started with Salam 
Fayyad, actually.
    He is gone so maybe the----
    Mr. Sherman. I had a little bit more trust back then.
    Mr. Abrams. Right.
    Mr. Sherman. Mr. Makovsky, what if cut the aid to $250 
million? Would the world come to the end?
    Mr. Makovsky. No, the world won't come to an end.
    Look, I agreed with what Elliott said about earmarking 
funds for education and tolerance. But just say that we have 
cut off the funds before and that was my comment that when we 
did that--did that I think two or three times about the U.N. we 
lost Fayyad. That doesn't mean we should be paralyzed.
    But I could tell you that talking to a lot of the Israeli 
security professionals who deal with this they come to me and 
say, I pray America does not cut off the PA because we work 
with them on a daily basis to fight terrorism in the West Bank, 
of course.
    But I--you know, it is hard for me to say I know better 
than you do when they are closer to the situation than I am, 
whether it is the Chief of Staff Gantz, whether it is Diskin, 
head of the Shin Bet.
    So I think we have to think in different ways. And can I 
just say to Ms. Ileana Ros-Lehtinen's point about the U.N. 
Human Rights Council and the U.N. system, we know there are 
double standards.
    How many times has the U.N. Human Rights Council condemned 
the carnage in Syria where over \1/4\ million people have been 
killed versus how many times do they condemn Israel? And so----
    Chairman Royce. Gentleman's----
    Mr. Makovsky [continuing]. The problem goes way beyond 
Abbas.
    Chairman Royce. The gentleman is out of time. We need to go 
to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    It is great to see the three of our distinguished 
witnesses. Thank you for your insights and testimony.
    Secretary Abrams, you pointed out that incitement means 
teaching generations of Palestinians to hate Jews by demonizing 
and dehumanizing them and teaching hate and terror by honoring 
terrorists.
    I have been very concerned about many of the statements 
coming from Prince Zeid of Jordan, the U.N. High Commissioner 
for Human Rights, which always tilt heavily against Israel.
    They are one-sided, and to have a human rights point person 
in the United Nations taking such a one-sided position does 
grave damage to the truth and I have been working on this 
issue, perhaps not as much as Elliott Abrams, but for the 35 
years that I have been here.
    And for 20 years have been raising the issue of UNRWA, had 
several hearings on it, joined by Ileana Ros-Lehtinen and Henry 
Hyde when he was chairman. Of course, our distinguished 
chairman today offered amendments on it, always getting back 
from UNRWA officials and State Department officials that they 
are working on it, they are trying to excise the textbooks from 
the virulent anti-Semitic hate that is contained within it.
    I remember at one of our hearings we talked about pep 
rallies, like American football game pep rallies, where 
terrorists were extolled and lifted up as heroes to young 
children who are, obviously, impressionable.
    So it has been many years. We have provided over $4 
billion--we are the largest donor--$408 million in 2014. 
Closest contributor would be the European Commission at $139 
million and the U.K. at $95 million.
    So we are disproportionately the biggest contributor to 
UNRWA. So as you pointed out in your testimony but you might 
want to elaborate on it, Mr. Secretary, U.N. Watch pointed out 
and was able to expose 12 UNRWA-linked Facebook accounts that 
incite violence.
    I have looked at each and every one of them. They are 
horrific. They have called on Ban Ki-Moon as well as the UNRWA 
chief to fire these people.
    Have they fired them? Has a commission of inquiry been 
established as was asked for by U.N. Watch? I mean, this is 
absolutely disgusting. Remember ``South Pacific'' that famous 
song, you have got to be taught--``You Have Got to be Taught'' 
hate, and these children are being taught hate every single day 
and our money is complicit in it.
    Secretary Abrams?
    Mr. Abrams. Thank you.
    Yes, as you know, many Palestinian children don't go to PA 
schools. They go to UNRWA schools and U.N. Watch has found 
these employees who are teaching hate.
    I think you are asking the right questions. So far as I am 
aware, no one has been disciplined. No one has been fired. 
There is not a commission of inquiry. The usual UNRWA response 
is to cover up in the hope that, you know, you will forget 
about this in a month.
    So I think it is really important that you don't let the 
State Department, the U.S. Government forget about this 
because, again, the lesson that is going to be learned by UNRWA 
is it doesn't really matter.
    You know, they get angry for a week and then it passes and 
then it happens again and again and again. We know that there 
are lots of UNRWA employees in Gaza who are actually part of 
Hamas.
    Mr. Smith. Let me ask you, Mr. Schanzer, you pointed out 
that Hamas stands to benefit from Iranian's $150 billion in 
sanctions relief. You might want to expound upon that. What do 
you think qualitatively and quantitatively that will give Hamas 
the ability to do?
    Mr. Schanzer. Absolutely. A terrific question.
    Look, first of all, we are about to provide Iran with $150 
billion. How that is disbursed over the next 10 or 12 years, I 
think, still remains to be seen, and we continue to hear from 
the administration that very little of that will go to 
terrorism. I think the thing that is probably important to 
point out here is that even, let us just say 5 percent of that 
goes to terrorism, you are still looking at a huge sum.
    What that means practically for Hamas, I mean, you are 
going to be looking at cash transfers, which is hugely 
important for Hamas just to be able to maintain control over 
its territory.
    The tunnels have been cut off largely by Egypt, and so they 
are going to need cash to be able to pay salaries and to keep 
their security people on the streets. On top of that, there is 
the home grown rocket-making ability that we have seen that 
Iran has been able to help Hamas develop over time.
    Tunnel drilling also, we believe, also comes from Iran on 
some level and then, of course, the rockets that are imported 
in, the Fajr-5's and some of the other longer range missiles 
that we saw fired into Israel last year during that 50-day war.
    So there is quite a bit of damage that can be done through 
these cash transfers, which we fully expect to take place, 
largely to the Qassam Brigades, the armed wing of Hamas.
    Mr. Smith. Thank you. Thank you, Mr. Chairman, and thank 
you for calling this important hearing.
    Chairman Royce. Thank you, Mr. Smith.
    Mr. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for being 
here today. I would like to associate myself with the comments 
my colleague from New Jersey made.
    You know, when I look at this money, $500 million, this 
just brings back, like, almost a bribe to organized crime to 
keep peace in a certain section.
    I mean, I just don't know what stipulations are added to 
this money. I don't know if we require any strings attached to 
this money that would bring the violence down.
    I mean, we are losing generations of young Palestinians and 
we are paying to have these young Palestinians become so 
radical. So it is almost like the history of organized crime.
    I don't know if I really do agree with the fact that we 
shouldn't cut out some of this money. You know, we are paying 
to keep peace in a certain section.
    I just have a--when do you think this surge of violence is 
going to end? You know, the stability and the influence of the 
Palestinian Authority--do you think it ends if this doesn't end 
well?
    Mr. Abrams. Prime Minister Netanyahu made the comment about 
a week ago that these acts--these stabbings--are actually a 
form of suicide because you are almost certain to get killed by 
a police officer or military person, and there is hopefully a 
finite number of Palestinians who want to commit suicide that 
way. We just don't know what the number is.
    I am surprised, candidly, that we are into Thursday now and 
it is still going on and I really thought it would begin to 
burn out, and that is still my hope that it will begin to calm 
down in the next few days.
    Mr. Schanzer. There was an interesting article that 
appeared today by a former national security advisor to 
Netanyahu. He is now back in the private sector. His name is 
Yaakov Amidror, and he noted that more than 90 percent of the 
attacks have been taking place by residents of east Jerusalem.
    And so what we have is something very specific to these 
neighborhoods, these several hundred thousand individuals, and 
to me it is still unclear that it is entirely the PA or the PLO 
that is driving it, that it is entirely Hamas. Some of this 
really is grass roots or perhaps forces that we have not yet 
discovered.
    And so, you know, a lot of people are wondering whether 
this is a third intifada. Again, it is hard to tell exactly 
what that means but it is quite likely that we will look back 
on this several months from now and it could still be going and 
this could be one of those events that doesn't have an official 
end.
    Mr. Makovsky. Look, compared to the second intifada, within 
a month of the first--in the second intifada we had 1,500 
people injured. I mean, the order of magnitude we are facing 
now compared to 2,000 to 2,004 is very small and this--if one 
life is taken it is one life too much. So I want to be very 
clear about that.
    But this has not been a mass intifada that we saw. We know 
what that looks like. This is not it now. Could there be, like, 
a Muhammed al-Dura incident, this boy was--whether it was 
fabricated on TV, that is, if Israel killed him when that 
wasn't the case and that brought a lot of people to the 
streets. That, I think, you know, could change the order of 
magnitude.
    I am concerned, though, that--I hope this does not become 
the new normal, that a de factor binational reality sets in. I 
will just say, you know, what John Schanzer said about the east 
Jerusalem neighborhoods, this has been an area where they are 
now moving the concrete dividers that have been outside these 
neighborhoods, now there is a move with checkpoints to change 
that.
    So I tend to think that we could see changes in Jerusalem 
as well as a result of this violence with the barriers being--
--
    Mr. Sires. I just have one last, you know--do you believe 
that the status quo surrounding the Temple Mount can be 
maintained after this?
    Mr. Makovsky. I just would like to repeat I hope Secretary 
Kerry over there could help reach a set of understandings and 
maybe that can be formalized by a set of delineated 
understandings of what is this status quo. So we will know if 
there is a change to it.
    But that requires the Jordanians as the custodians. Last 
year, Kerry, Abdullah, and Netanyahu totally ended the violence 
in Amman last November.
    It was a great success story for the United States. But I 
think there needs to be some sort of a delineation. I think 
that would be very important in my view but it requires the 
Jordanians to do something they don't want to do, which is 
publically step up when Israel maintains the status quo.
    They might want to whisper that but whispers don't help us 
unless they say it publically and we don't see that right now.
    Ms. Ros-Lehtinen. Thank you, Mr. Sires. Thank you.
    Thank you, Mr. Sires, and now we turn to Mr. Salmon of 
Arizona.
    Mr. Salmon.
    Mr. Salmon. Madam Chairman, I am going to yield back my 
time.
    Thank you.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    You know, I have met with Benjamin Netanyahu, as many of us 
have, and one thing that really stuck out with me in our 
meetings was a commitment to Israel to even having a 
conversation about a two-state solution but they had one 
request--that the Palestinians recognize their right to exist.
    You know, there is a simple solution to get everybody to 
the table to talk about a solution and that is just acknowledge 
each other's right to exist.
    One side of the equation is not willing to do that. My 
appeal to the Palestinians is acknowledge Israel's right to 
exist. But what we see going on is this talk about removing 
their access to the Western Wall.
    If you look at history of the Western Wall, it was a place 
the Jews were able to go and worship. It was an area that was 
given to them. It was a trash dump.
    The Muslims controlled the Temple Mount--threw their 
rubbage over, oftentimes feces and garbage. It is not the case 
now but that is the history, and now we are hearing that we are 
going to even take the Western Wall away from the Israelis.
    A simple solution is recognition of a right to exist. So I 
will move on.
    What can we do? What can the administration do? What can 
Congress do to stop this violence?
    I want to say that in a prepared testimony last February 
Dr. Schanzer stated,

        ``I don't believe that peace between the current 
        leaders is likely nor do I believe that this 
        administration has earned to trust of either side. 
        However, the next set of leaders may well make 
        progress. But even if deadlock persists, Washington 
        cannot abdicate its role as the honest broker. Once we 
        return to that role, we may have an opportunity to call 
        for a halt to all unilateral activity and guide this 
        conflict toward a more constructive dynamic.''

I thought pretty wise clairvoyant words there.
    What advice to you have for Congress to play a role in 
this? Future leaders--we got a Presidential election. We may 
have someone that looks at this situation a little differently, 
that looks at the role of America differently in negotiating 
peace.
    And so I am asking you what advice do you have to the 
United States Congress here in October 2015 to play a role in 
minimizing if not eliminating the senseless violence?
    I asked Dr. Schanzer there but I will be glad to move--let 
us let him answer first and we will come to you.
    Mr. Schanzer. Well, thank you, Congressman Duncan.
    What I would want to stress right now is that America does 
not intend to abdicate its leadership role in the region.
    I think a lot of actors in the Middle East right now have 
given up on the United States, that we have rolled over on 
Iran, that we have declined to battle ISIL and that in general, 
we have had a more hands-off approach to the region, a so-
called rebalancing of our foreign policy or pivot to Asia or 
whatever you would like to call it.
    But we need to make it very clear to the region that we 
intend to reengage, and I would argue that America has been the 
most effective in its peace making opportunities when it has 
demonstrated its strength.
    So if you look after the first Gulf War, that was the 
moment where the United States demonstrated that it was not 
going to take no for an answer. That is when the Israelis and 
the Palestinians fell in line and began to work with the 
administration toward peace.
    I look forward to a day where we can, again, look to 
American strength as leading the way in the region.
    Mr. Duncan. I appreciate that and I agree with what you 
have said.
    I think our allies don't trust us and our enemies don't 
fear us, and a strong America is--and our presence in certain 
regions is a very unifying force. Mr. Makovsky.
    Mr. Makovsky. Look, I tend to use sports analogies a lot so 
I hope you will indulge me. The last three times that we have 
been involved 2000 with Camp David--2007 and 2008, Condoleezza 
Rice, the Annapolis process, the process I was involved in was 
Secretary Kerry as well.
    There was an effort made from the top levels to try to hit 
the home run ball, so to speak, and solve the whole conflict. 
It was very admirable. Secretary Kerry was relentless and 
putting in a lot of effort.
    But I think what these three efforts have shown us is that 
these leaders are not able to do the end game. I would rather 
us see some singles, some doubles and to try to do what we can 
do because whenever we try to hit that home run ball we could 
strike out.
    Mr. Duncan. Reclaiming my time real quick and with 3 
seconds, Israelis pulled out of the settlements. They made a 
good faith effort.
    From that point forward, rockets continued to fly into 
Israel until last summer. I think Israel has made a good faith 
effort. It is time for the Palestinians to make a good faith 
effort, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Duncan.
    Mr. Deutch, my south Florida colleague.
    Mr. Deutch. Thanks very much, Madam Chairman.
    Mr. Makovsky, can we start with a focus on the security 
cooperation that exists currently between the Palestinian 
security and the Israelis.
    I would like to probe that a little because, given the 
extent of that cooperation, everything that we have been 
discussing this morning makes no sense in terms of the actions 
and statements that President Abbas makes.
    But can you just confirm the extent of that cooperation?
    Mr. Makovsky. So, Congressman Deutch, you have a situation 
that, you know, you have the central command, the West Bank 
command of the IDF. You have the Shin Bet.
    They are working with their Palestinian colleagues to keep 
Hamas out of the West Bank and to keep things quiet, and I 
would say that it has been successful not judging by my 
standard, by what--you know, I quoted Gantz and Diskin as 
saying that that is why there has been quiet.
    And if you got rid of that, then what you would have is 
Hamas more in the West Bank, the PA probably more overrun. So I 
think that security cooperation is indispensable going forward 
and I think we have to be very careful to say well, we don't 
need it because it is somehow a graft payment, I don't see it 
that way.
    I see it as Israelis and Palestinians really interpreting 
what peace should mean, which is working together for security. 
So I would just be very cautious before I would take that piece 
out, given that it has shown tangible results and this was not 
always the case.
    You know, in the '90s things were very politicized. These 
were politicians--Jibril Rajoub, Mohammad Dahlan. These are now 
professionals on the Palestinian side and Israelis think very 
highly of them.
    Mr. Deutch. So here is what is so puzzling, I think, to so 
many of us.
    We spent all this money providing assistance that 
contributes to security for Israelis and Palestinians that 
keeps Hamas out. And then President Abbas--you brought up the 
prior example--President Abbas then goes on TV and says that 
Israel is summarily executing 13-year-old kids despite that 
fact that, one, he was still alive being treated by Israel, and 
two, had perpetrated a terrorist act.
    And when he does that and when he engages in this 
incitement, all of the dollars that we spend on security to 
help secure the Israelis and the Palestinians from Hamas 
attacks becomes less effective because his statements only make 
the situation worse and embolden those who would ultimately be 
supportive of Hamas.
    Isn't that the case? Dr. Schanzer, isn't that the case?
    Mr. Schanzer. Look, it is the case and part of the problem 
here is that Abbas is, I think, trying to struggle with some 
competing interests.
    On the one hand, he does need to maintain that absolute 
iron grip over the West Bank and he needs Israel 100 percent in 
order to do that. He cannot do it himself.
    I have heard estimates that if the Israelis were to stop 
cooperating with the PA, that in less than a month, the West 
Bank would be overrun.
    At the same time, he has his political constituents who 
don't like the fact that he is working with the Israelis, and 
so there is a popularity issue and, of course, his popularity 
has been sagging for quite some time because of corruption, 
because of poor governance, because he has not been able to 
unify the territories, et cetera.
    And so you see him sort of, you know, neither here nor 
there. And then, more broadly, there is this question of 
ultimately his goal of establishing a Palestinian state, and 
the longer that he does not achieve that, the more frustration 
we see from him. And some of these bombastic statements, I 
think, are absolutely a result of that.
    Ironically, I think a lot of that comes from his own 
diplomatic positions. I think he has had opportunities to 
negotiate peace and he has stepped away from that several 
times.
    Mr. Deutch. And how does--just the last question I would 
ask is how is it that, and I am being sincere--I mean, how does 
he--how does he get away--how is it somehow acceptable to make 
an assertion about the religious sites that is patently false 
and then have that assertion become a talking point that many 
around the world start to adopt? How does that happen?
    Mr. Abrams, do you have thoughts on that?
    Mr. Abrams. Well, there are lots--you know, there is a 
discourse out there that is filled with lies about Israel and 
this just becomes another small piece of that discourse.
    People will believe almost anything, and I think, 
unfortunately, in the Arab world it is very common that people 
assume that their leaders are lying to them half the time.
    So the fact that he is lying to people, not such a big 
deal, unfortunately.
    Mr. Deutch. So Madam Chairman, I would conclude by saying 
that while I acknowledge the importance of our security 
assistance, I think it is very important this has to be--these 
statements and these actions have to be relevant to our debates 
and for those in the region who have said they don't care 
what--how Congress use this there is a lot at stake in terms of 
their own security in the way we address this and we are paying 
close attention.
    It does matter, and I thank the witnesses for their 
testimony today.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Meadows is recognized.
    Mr. Meadows. Thank you, Madam Chairman.
    Thank each of you for your testimony today. I guess this 
comes a little bit personal to me in that I just returned from 
Israel.
    In fact, still on jet lag, having arrived on Monday, 
spending a week up close and personal with a number of these 
terrorist attacks, changing our plans as we were there on the 
ground with a number of our security detail concerned about 
where we were going, where we were not going and, indeed, 10 
minutes after we left a particular area it was reported that 
the very place that we left there was an attack by a 
Palestinian dressed as a reporter on either IDF or police 
security forces right where we were.
    And I find that interesting because all of this incitement 
that continues to go on, and I agree with some of the other 
statements that have been made because I have tried to work on 
eliminating the money for the Palestinian Authority if it is 
going to be used to pay terrorists a stipend and I say not only 
a stipend, it is actually a very good salary where they can be 
incentivized to complete and conduct terrorist activities. I 
find it just mind boggling that we would continue to do that.
    That being said, I do agree that the Palestinian Authority, 
from a standpoint of security, provides a meaningful tool to 
work with the Israeli Government. And so it is more complex 
than perhaps this guy from North Carolina could figure out.
    That being said, it is important that the truth be told and 
the truth is that with regards to the Temple Mount where there 
may have been a few comments that have been made by Israelis on 
one extreme that the government in itself is not trying to 
change it.
    The only person who couldn't go to the Temple Mount was not 
the Muslim worshipers. It was this Member of Congress that 
couldn't go because it was not safe for me to do that.
    Now, I say that because somehow in this whole narrative 
what we are finding, and I normally ask questions but today is 
my chance to make a statement, we are missing the fundamental 
question of incitement and how we are either ignoring or not 
addressing the issue as a nation who can address it.
    I was in a courtroom where there were six defendants there 
who had been accused of terrorist activities, five of those 
Hamas related, one of those ISIS related, and with the pride in 
their face as they talked back and forth to members of their 
families and friends, almost cheering the fact that they were 
there sitting trial and being applauded as heroes.
    Enough is enough. And what we must do is put pressure on 
our European allies to address this particular issue. That is 
where it is.
    We may stand firm but let this day be the start of where 
our European allies understand that they must join us in this 
fight to make sure that the incitement is eliminated.
    And with that, I would be--in the time remaining I would 
ask how do we start to provide services for the Palestinian 
Authority versus cash payments where we can perhaps still 
provide the security-related issues that are out there.
    Is there a creative way for us to address this and finally 
have a resolve where we can do that. Anybody that wants to--
Secretary?
    Mr. Abrams. Just a quick idea. Just earmark everything. No 
unearmarked budget support.
    I mean, if you want to dock one particular thing, do it. If 
you want more for education, do it. Just don't give any 
unearmarked cash.
    Mr. Meadows. Mr. Abrams, let me go with that because at a 
table very much like yours I talked to the Under Secretary of 
State almost a year ago and said that this money that was going 
for paying of terrorists was--that program was going to go away 
and indeed it went away from there but only shifted to another 
area which says, well, it is not here in this pot, it is in a 
different pot. When are we going to address that? That one 
area?
    Mr. Makovsky. Look, this is why--what you said about the 
Europeans I just want to say amen, amen because this is what is 
required. We can't do this by ourselves, and if we have a 
quartet with the Europeans dealing with the Palestinian issue, 
administration to administration, I think there needs to be 
more consultation with the funding arms in Europe.
    I am not saying we will succeed immediately. But we need to 
start with awareness. I also want to say, because we have been 
talking about security, and I also think that some of the 
people to people programming that does go on, I don't like to 
say any of this is a panacea--I know there is some effort now, 
I'll map a coalition of people to people trying to see what 
could be done on conflict resolution. I think that is a good 
idea.
    I think that is one piece. There is going to be 20 
different pieces to this puzzle. Earmarking could be a piece 
but consultation with Europe, I think, is critical. People to 
people is a piece of this. There is going to be a lot of 
different pieces if we are serious about taking this issue on.
    Mr. Schanzer. Just a quick note that the funding that you 
are talking about, the PA funding for prisoners, ultimately is, 
as I understand it, was moved over to the PLO and, again, I 
think we have to just note that the PLO has outlived its 
usefulness.
    It is no longer actually a partner in peace. It is supposed 
to be the negotiating partner for the PLO. It is not doing 
that. Instead, what we are seeing is the funding of prisoners.
    On top of that, we are seeing the funding of these media 
organs that have been spreading lies about the Temple Mount. 
And so I really think that we need to see a significant 
overhaul of the PLO.
    Perhaps Congress could begin to weigh whether we want to 
continue to recognize the PLO in light of its recent activity.
    I thank you.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. 
Meadows.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madame Chair.
    Thank you to our witnesses for being here. I, like my 
colleagues, am incredibly disturbed by the recent events and 
really want to join in all the strong condemnation of this 
recent round of violence. I particularly associate myself with 
the chairman and ranking member's earlier comments.
    And I am particularly concerned about the incendiary and 
irresponsible words and texts that played a leading role in 
this volatile situation.
    The bottom line is that terrorist acts of violence are 
being perpetrated against Israelis and this must be strongly 
condemned by all parties, particularly by the Palestinian 
Authority.
    I want to note that yesterday I joined every single member 
of the Jewish caucus in Congress in issuing a statement 
rejecting the irresponsible and factually inaccurate resolution 
passed by UNESCO executive board which falsely blames Israel 
for the recent surge in violence. One sided inflammatory 
statements like this are part of the problem.
    They fan the flames of hatred and prevent us from moving 
forward in cooperation in the peace process that could lead to 
a two-state solution.
    And Mr. Chairman, with your consent I wish to enter this 
statement into the record.
    Ms. Ros-Lehtinen. Without objection, so ordered.
    Mr. Cicilline. Thank you.
    And I thank you for your testimony. In particular, I thank 
you, Mr. Abrams, because in your testimony you spoke about one 
case in particular, the case of Dalal Mughrabi, one of the most 
deadly terror attacks in Israeli history where 37 civilians, 12 
of them children, were killed in the hijacking of a bus, and 
this was glorified by naming schools and summer camps and 
sports tournaments after this terrorist, and it is just one 
example of the kind of glorification of terror and violence 
that continues to persist in the Palestinian Authority.
    And so my first question is, are there any alternative 
Palestinian voices coming from the PA or society, more broadly, 
that are calling for Palestinians to cease these recent acts of 
terror?
    Mr. Abrams. There are, and, you know, we can point to, for 
example, former Prime Minister Fayyad as an example of this. 
And there are clearly many others.
    The problem has been the leadership has been the same 
group. First it was Arafat, now it is Arafat's survivors and 
acolytes, starting with President Abbas, who are in charge.
    They are in charge of the PA. They are in charge of the 
PLO. They are in charge of Fatah and you are not getting that 
kind of cooperation from them.
    Mr. Cicilline. Also, I know for many years the educational 
system in the West Bank and Gaza and other ports of region have 
really put forth dangerous, inaccurate perceptions about Jews 
and Israelis and sort of fostered a lot of the hatred.
    And I know there has been a lot of conversation. I spoke to 
President Abbas about his myself several years ago and there 
were assurances they were working on this.
    A, is there any evidence that there have been sort of any 
progress in terms of the curriculum and the textbooks? And to 
your earlier point, has the time come that we simply do not 
provide educational aid in terms of financial resources but 
provide the actual textbooks that reflect the kind of 
curriculum that will foster understanding and kind of more--
sort of a context in which a relationship can actually between 
two communities?
    Mr. Abrams. I think it goes forward and backward. There is 
sometimes a new textbook that is better. Then a few years later 
a worse textbook comes out.
    I think part of the answer is to insist more. It may be to 
see if we can provide textbooks including textbooks that have 
been done in Arabic in other places in the world including the 
U.S.
    There is an UNRWA problem because about so many--tens of 
thousands of Palestinian children aren't going to PA schools. 
They are going to UNRWA schools, which have their own 
textbooks.
    And finally, there is this PLO problem that Jonathan 
Schanzer was referring to and which led me to say it is time to 
close the PLO office in Washington.
    Mr. Cicilline. And I just want to say I think that this 
question of how do we stop the next generation of engaging in 
the same kind of behavior really does start with education. And 
I would love to hear more, Mr. Abrams, right after Mr. Schanzer 
about closing about the PLO offices here.
    Mr. Schanzer. Actually, I wanted to just mention something 
about the textbooks. I think, without question, the textbooks 
are a problem, and we continue to focus on that here in 
Washington. But so much of this has to do with the teachers 
themselves, right? What is taught in the classrooms comes down 
to the people who are teaching it. And so you have an 
administrative education problem.
    You could change the textbooks all you want and the 
teachers could still teach their children that Israel is the 
enemy or that Israel doesn't exist on a map, and so it is a 
much more systemic problem than just textbooks.
    Mr. Cicilline. Very important point.
    And Mr. Abrams, with my last few seconds would you speak a 
little bit about why you think closing the PLO offices is a 
good strategy?
    Mr. Abrams. First, because of the way in which the PLO has 
been conducting itself but secondly because nobody elected the 
PLO. Once upon a time, there were PA elections. The PLO is a 
nondemocratic body. The PLO does not in fact represent the 
Palestinian people even though the U.N. thinks it does.
    So in my own view, they are not doing anything helpful.
    Mr. Cicilline. Thank you. I thank you, Madam Chairman. I 
yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    Gentlemen, I appreciate you being here and, you know, you 
wonder about the increase--escalation of violence in that 
region and I look at, you know, this administration--I remember 
Nancy Pelosi, John Kerry, if I remember correctly, saying that 
Hamas was a humanitarian organization and giving them 
credibility and I hear the President saying the acts of 
terrorism that Israel is conducting or what Israel is going 
through are acts of terrorism yet they are just trying to 
defend their people.
    You know, and you wonder why things are escalating. I see 
that happening and, Mr. Abrams, you were talking about getting 
new books into the schools.
    You know, as Dr. Schanzer pointed out, it is much deeper 
than it systemically because the books aren't going to change 
anything. The children are a product of their environment. 
Their environment are the parents, it is the society, it is 
government.
    And until you change that it is not going to happen and to 
go in and say we need to have a--you didn't say regime change 
but that is what I am hearing from you guys and I think we have 
meddled too much in too much of that.
    That has to come from within and we can't give it outside. 
And as Mr. Makovsky said, you know, it will be a puppet of the 
U.S. and we have done that over and over again. We can't do 
that.
    So this is a much deeper problem and we had introduced here 
over a year ago a resolution to pull all funding from the 
Palestinian Authority because our hard working American 
taxpayers are paying taxes that go in the name of peace to the 
Middle East and we have just seen an escalation that is not 
working.
    So my goal is to remove all funding from the Palestinian 
Authority. I think your idea, which I do agree with, of closing 
the PLO office, I think that is another step that we should go 
into.
    But just to go on and doing what we are doing. I have only 
been here 3 years but I have seen an escalation in violence. We 
had the war last year that went on for, what was it, 6 weeks?
    You know, and we are giving all this money, $500 million, 
roughly, a year. And I agree with my colleague, Mr. Sherman, 
that that money should go to deficit reduction in America where 
it will make a difference here.
    And, you know, what can we do different than what you have 
said? I mean, the textbooks to me, yeah, that is a nice thing 
that will make us feel good because they won't have all this 
inflammatory language.
    But it is a lot deeper than that. I just know doing what we 
are doing is not going to work. You well know what the 
definition of insanity is.
    I should like to see a whole different paradigm shift in 
our foreign policy that we support people that are on the same 
page as we are. I don't want them to live like us. I don't want 
to tell them what kind of government.
    But they should believe--the people that we assist, I would 
think, are the same--the countries that believe in the same 
ideals we do--life, liberty, pursuit of happiness, religious 
freedom.
    I am not going to dictate that to anybody but if you want 
our help you need to come to this side of the table.
    What are your thoughts on changing that whole narrative and 
paradigm?
    Mr. Schanzer. I will just very briefly say this, that I 
think one of the biggest problems with our relationship with 
the Palestinians is that it is transactional, not 
transformational--that we simply fork over funds and we have a 
sort of expectation that they just keep the peace.
    And by the way, that is the same paradigm that we had with 
Egypt and many of the authoritarian governments that have 
collapsed over the last 5 or 6 years, and we see how that has 
worked for us.
    And so ultimately, I think, we have to come to the 
conclusion that this is a failed paradigm. This is not to say 
that in our attempts to transform Palestinian society that we 
need to be the people who are dictating exactly who comes in 
and how they operate.
    But I think we can begin to set standards, right, for 
elections, making sure that, you know, people, as in the case 
of Mahmoud Abbas, that he is not--you know, now he is 10 years 
into his term. He has no sign of going anywhere.
    We need to make sure that there are at least some 
semblances of democracy, of participation in that society, and 
I think it is at that point that we begin to see some of the 
changes that may be worth funding in the PA.
    But the one word of warning here is that if you just remove 
the entire infrastructure by defunding it, you have got the 
potential for chaos, and that is what we have got to try to 
avoid.
    Mr. Makovsky. If I could, look, I agree with this last 
point of John. We have got to be careful. If we think we just 
rid of the old infrastructure that things will be better when 
we know we are going to get worse.
    We know it. And we have withheld funding before. It is not 
like we haven't tried it.
    We have tried a different paradigm and we didn't get the 
result we wanted.
    I do think though out of this hearing is coming some real 
ideas. I mean, you know, I think you have heard from the three 
of us. You know, John and Elliott have been talking about 
closing the PLO offices, which I think could be a signal.
    I think the idea of blacklisting who we know are involved 
in incitement, earmarking funds for things we believe in, the 
issue of trying to get European awareness so we are not on this 
incitement focus by ourselves. We need to--these are four 
different things that are not being done now.
    Mr. Yoho. All right. I will tell you what we will do. Our 
office, and I know the chairmen they will go ahead and probably 
go along with us. Our resolution to defund the $500 million 
until Palestine got rid of Resolution 21 and 23, we did that.
    They got rid of those resolutions but we know that money is 
fungible and is still being sent over there, still being used 
somewhere that is aiding them to be able to pay the stipends to 
people in prison. So I like those recommendations and I am sure 
you will see those come out soon and I appreciate your time, 
Madam Chair.
    Thank you for----
    Ms. Ros-Lehtinen. Thank you so much, Dr. Yoho.
    And as we recess our hearing I want to notify our members 
that we will commence our markup of House Resolution 293 at 
approximately noon. Without objection, we are in recess.
    [Recess.]
    Chairman Royce. This committee will come to order.
    Pursuant to notice and with concurrence of the ranking 
member, we meet today to markup House Resolution 293 on 
incitement, and without objection all members may have 5 days 
to submit statements and related materials for the record.
    I now call up H. Res. 293 and without objection it is 
considered read and open for amendment at any point.
    Before moving to statements, I call up Royce Amendment 204, 
the bipartisan amendment in the nature of a substitute that was 
circulated to all offices previously, which I am offering on 
behalf of myself, Ranking Member Engel, subcommittee chair Ros-
Lehtinen and Ranking Member Deutch.
    Without objection, that amendment, which members have in 
their packets, is considered read and is base text for purposes 
of amendment.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. After recognizing myself and the ranking 
member, I will be pleased to recognize any members seeking 
recognition who wants to then speak on the resolution.
    House Res. 293 reflects many of the concerns we have 
discussed this morning, an escalation of violence against 
Israelis and the way in which that escalation of violence is 
praised and encouraged and even fueled by Palestinian Authority 
officials.
    This resolution rightly condemns this incitement and the 
outbreak of violence and expresses support for those who are 
working to encourage peace and cooperation between Israelis and 
Palestinians.
    And I want to thank our chairman emeritus and Middle East 
subcommittee chair, Ileana Ros-Lehtinen--you are very welcome--
and Middle East Subcommittee Ranking Member Ted Deutch for 
authorizing this important measure.
    And I would also note that many members beyond the 
committee have been focused on combating incitement and 
terrorism against Israel including Congresswoman Martha McSally 
of Arizona, who introduced an important incitement resolution 
earlier this week and worked with us on this draft resolution.
    Martha McSally is right. It is critical that we stand by 
our good ally, Israel, at this challenging time. And I now 
recognize the ranking member for his remarks.
    Mr. Engel. Thank you. Thank you very much, Mr. Chairman.
    I want to associate myself with your statement that you 
just made. I thank you for bringing this resolution forward.
    I want to thank our colleagues, Ileana Ros-Lehtinen and Ted 
Deutch, for working so long and hard on this. This is a very 
important and timely resolution, and as we just heard at our 
hearing, the Palestinian violence against Israeli citizens is 
getting out of hand.
    We need to dial up pressure on Palestinian leaders to 
repudiate this violence, bring those who are responsible to 
justice and put a stop once and for all to the ugly anti-Israel 
anti-Jewish incitement that has permeated Palestinian culture.
    So this resolution sends a clear message that the violence 
must stop. It must stop to protect the lives of the innocent. 
It must stop if there is any hope of working toward a two-state 
solution.
    Again, I think our hearing that we just had showed us 
loudly and clearly that this cannot continue. I want to 
reiterate everything I said in my earlier statement in our 
hearing and I urge my colleagues to support this measure, and I 
yield back, Mr. Chairman.
    Chairman Royce. Do any other members seek recognition?
    Ms. Ros-Lehtinen. Yes, Mr. Chairman.
    Chairman Royce. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
Ranking Member Engel, for bringing up House Resolution 293 to 
markup today.
    This resolution, which I introduced alongside my friend and 
south Florida colleague, Congressman Ted Deutch, condemns anti-
Israel and anti-Semitic incitement within the Palestinian 
Authority and the timing of this markup and today's hearing--
Mr. Chairman, I thank you for this--could not be any more 
appropriate.
    Last week, committee staffers traveled to Jerusalem and 
they visited the holy sites and were constantly in earshot of 
the ambulances attending to the victims of these horrific 
attacks.
    Over the past month and a half, we have seen a new wave of 
terror and violence that has spread across Israel, spurred on 
in large part by incitement by Abu Mazen and the Palestinian 
Authority officials.
    This latest round of terror and violence is just that, only 
the latest round. It may take a new form with knife attacks 
being the preferred method of terror this time around.
    But the reality is that what we have come to expect when 
the Palestinian people have been indoctrinated and incited to 
violence for years and years by their supposed leaders we need 
to hold Abu Mazen and the PA accountable for their actions to 
date and let the PA know in no uncertain terms that it needs to 
stop fueling the violence and start working toward peace. We 
need the parties involved to reconcile their differences, come 
together, de-escalate the tensions.
    Abu Mazen needs to put aside his self-interest and finally 
do what is right for the good of the Palestinian people instead 
of inciting violence and promoting hatred. Abu Mazen needs to 
call for calm and work with the Israelis to restore the peace.
    The King of Jordan also has an important role to play as 
the guardian of Jerusalem's Islamic holy sites. Everyone 
involved has an interest in seeing the incitement and violence 
stop.
    Jerusalem is home of the holiest sites for Jews, for 
Christians, for Muslims, and it is time for Abu Mazen to 
renounce the violence and stop the incitement for his 
government.
    So I urge my colleagues to support this measure and I urge 
the international community to impress upon on Abu Mazen how 
vital it is that the incitement stop immediately.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Ileana.
    We now go to Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    I want to extend my thanks to you and to Ranking Member 
Engel and your staff for working diligently to move this timely 
resolution forward, and I want to thank my friend and my 
partner, Chairman Ros-Lehtinen, for her bipartisan efforts on 
today's measure.
    We have just spent the last 2 hours discussing how 
incitement within official channels of the Palestinian 
Authority breeds violence.
    And by passing today's resolution, this committee sends a 
message to the world that Congress is watching and that violent 
hateful rhetoric will not be tolerated. We won't tolerate 
officials using religion as a means to spur violence.
    We won't tolerate actions like we saw this week as a 
Palestinian-backed resolution at UNESCO attempted to rewrite 
history and inflame tensions on the ground by challenging 
history.
    President Abbas is supposed to be a partner for peace. It 
is time he stands on the world stage and loudly condemns 
violent attacks against innocent citizens.
    It is time that he speaks truthfully about two states 
living side by side in peace and security. It is time that he 
returns to direct negations and works to truly fulfill the 
goals of creating a brighter future for his people.
    There has to be an end to this vicious violence. The only 
way to do it is by courageous leaders stopping the spread of 
false, inflammatory, accusatory rhetoric and promoting a 
culture of nonviolence and a culture of cooperation.
    I appreciate the support of my colleagues today and I 
encourage the passage of this resolution.
    Chairman Royce. Thank you, Ted.
    Any other members want to speak? Mr. Boyle.
    Mr. Boyle. I just want to briefly say I am proud to 
cosponsor this resolution and thank the author as well and the 
chair and ranking member for having this hearing and passing 
it.
    It is important to remember specifically what started this 
latest round and that was that false rumor that Israel was 
going to cut off access to the Temple Mount, the al-Aqsa 
Mosque.
    Completely untrue, completely false, and yet there have 
been attack after attack, killing innocent people in Jerusalem 
and, of course, the people perpetrating those attacks as well.
    It is important that all of us who are fortunate to have 
elected positions exercise them with responsibility and I hope 
that those within the Palestinian Authority recognize just how 
much damage and destruction has been caused to both Israelis 
and Palestinians because of their own words.
    I also want to thank and associate myself with the efforts 
of Jordan to attempt to bring a resolution to this latest 
effort and stop this absolute madness that will lead to nothing 
except for more bloodshed.
    Thank you.
    Chairman Royce. All right. Hearing no further request for 
recognition on the base text, are there any additional 
amendments?
    Mr. Salmon.
    Mr. Salmon. Thank you, Mr. Chairman. I do have an amendment 
at the desk.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Salmon. I would like to thank you, Mr. Chairman, for 
bringing up this timely measure. It is critical that Congress 
go on the record to oppose the PA's blatant incitement of 
violence in Israel and it is unacceptable and we can't remain 
silent.
    My Arizona colleague, as you mentioned in your opening 
statement, Congresswoman Martha McSally, who cares deeply about 
this issue, has worked on a similar resolution of condemnation 
of the Palestinian Authority.
    I am proud to be an original cosponsor of her resolution. 
My amendment would add a small but important provision from 
Congresswoman McSally's resolution to the one before us today.
    The amendment, very simply, expresses the U.S. Congress' 
support for the Government of Israel's fight against terrorism.
    After Palestinian President Abbas encouraged protestors to 
protect Jerusalem and blessed every drop of blood that has been 
spilled for Jerusalem as blood spilled for Allah, it is 
critical that Congress speaks with a firm voice to acknowledge 
the challenges the Israeli Government is confronting and offer 
our support for this struggle with eyes on a goal of peace for 
both Palestinians and the Israelis.
    I commend Congressman Ros-Lehtinen and Congresswoman 
McSally for their efforts on this important issue and I urge my 
colleagues to vote in favor of my amendment.
    Chairman Royce. Any other members seek recognition to speak 
on the amendment?
    Hearing none, the question occurs on the amendment. All 
those in favor say aye. All those opposed no.
    In the opinion of the Chair, the ayes have it. The 
amendment is agreed to and hearing no further amendments the 
question occurs on approving the resolution as amendment.
    All those in favor say aye. All those opposed, no.
    In the opinion of the Chair, the ayes have it. House 
Resolution 293 is agreed to as amended and without objection it 
I ordered it is ordered favorably reported as amended and staff 
is directed to make any technical and conforming changes.
    And also without objection the Chair is authorized to seek 
House consideration under suspension of the rules for this bill 
and that concludes all the business today, and I want to thank 
our ranking member, Mr. Engel, and all of the committee members 
for their contribution, their assistance with our markup here 
today.
    The committee is adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
                   
                   
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                                                                                                                                                                                                                                                                                                                                                                                                                     
</pre></body></html>
